                                           March 14, 2002




MEMORANDUM TO:               Chairman Meserve



FROM:                       Hubert T. Bell/RA/
                            Inspector General


SUBJECT:                    MEMORANDUM REPORT - REVIEW OF NRC'S
                            IMPLEMENTATION OF THE FEDERAL MANAGERS' FINANCIAL
                            INTEGRITY ACT FOR FISCAL YEAR 2001 (OIG-02-A-09)


This report reflects the Office of the Inspector General’s (OIG) assessment of the Nuclear
Regulatory Commission’s (NRC) compliance with the Federal Managers' Financial Integrity Act
(FMFIA) for fiscal year (FY) 2001. We found that, for FY 2001, NRC complied with FMFIA.
However, we are reporting two material weaknesses: the absence of a managerial cost
accounting process and inadequate accounting for internal use software. Because these
issues and attendant recommendations are included with OIG’s report on NRC’s financial
statements for FY 2001, this report contains no recommendations.


BACKGROUND

The FMFIA was enacted on September 8, 1982, in response to continuing disclosures of waste,
loss, unauthorized use, and misappropriation of funds or assets associated with weak internal
controls and accounting systems. Congress felt such abuses hampered the effectiveness and
accountability of the Federal Government and eroded the public's confidence. The FMFIA
requires Federal managers to establish a continuous process for evaluating, improving, and
reporting on the internal controls and accounting systems for which they are responsible.

FMFIA requires that, each year, the head of each executive agency (subject to the FMFIA) shall
submit a report to the President and Congress on the status of management controls and
financial systems that protect the integrity of agency programs and administrative activities.
NRC makes its FMFIA assessment and report in its annual Accountability Report.
            Review of NRC’s Implementation of the Federal Manager’s Financial Integrity Act for Fiscal Year 2001



Office of Management and Budget Circular A-123, Revised, Management Accountability and
Control, is the implementing guidance for FMFIA. The term "internal controls," as envisioned by
the FMFIA, is synonymous with "management controls" and encompasses program and
administrative areas, as well as the accounting and financial management areas. NRC
Management Directive (MD) 4.4, Management Controls, is the agency’s implementing guidance
for FMFIA and Circular A-123.


RESULTS

NRC complied with FMFIA requirements for FY 2001. Although NRC is not reporting any
material weaknesses, OIG is reporting two material weaknesses: the absence of a managerial
cost accounting process and inadequate accounting for internal use software. The agency has
recognized these issues as significant, but not material, weaknesses.

OIG first reported the lack of managerial cost accounting as a material weakness in the FY
1998 reports on FMFIA1 and the agency’s financial statements.2 NRC is actively pursuing a
resolution to this issue. However, we will continue to report it as a material weakness until NRC
successfully implements managerial cost accounting. NRC expects to implement managerial
cost accounting during FY 2002.

Inadequate accounting for internal use software is a new material weakness identified during
the audit of NRC FY 2001 financial statements. In 1998, the Federal Accounting Standards
Advisory Board issued guidance for agencies to account for the development of internal use
software. The Statement became effective October 1, 2000. The guidance prompted the Chief
Financial Officers’ community to develop policy, redesign systems, designate documentation
standards and develop an adoption strategy for the new accounting standard. The NRC, in a
very timely and thorough fashion, developed policy guidance for adoption of the standard.
However, NRC did not adequately implement the management controls needed to ensure
compliance with the accounting standard. A complete description of this material weakness
and the lack of adequate management controls is discussed in OIG’s audit report on NRC’s FY
2001 financial statements (OIG 02-A-08).

During FY 2001, NRC took corrective actions to remedy the material weakness (management
controls) for NRC’s license fee development process. As a result, this material weakness is
closed.




       1
                       OIG Report 99A-11, Review of NRC’s Implementation of the Federal Managers’
                       Financial Integrity Act for Fiscal Year 1998, dated March 3, 1999.
       2
                       OIG Report 98A-09, Independent Auditors Report and Principal Statements for
                       the Year Ended September 30, 1998, dated March 1, 1999.

                                                     2
            Review of NRC’s Implementation of the Federal Manager’s Financial Integrity Act for Fiscal Year 2001

AGENCY COMMENTS

On March 8, 2002, the CFO and the EDO responded to our draft report (Attachment 1). They
disagreed that the lack of managerial cost accounting and inadequate accounting for internal
use software are material weakness.

CONCLUSION AND OIG ANALYSIS OF AGENCY COMMENTS

NRC complied with the requirements of the FMFIA for FY 2001. However, OIG disagrees with
NRC’s assessment that the absence of managerial cost accounting and inadequate accounting
for internal use software are not material weaknesses. Both cost accounting and accounting for
internal use software are intended to be agency-wide functions to better manage NRC’s
resources. These issues are material to the agency as a whole, and therefore merit “the
attention of the Executive Office of the President,” as stated in MD4.4. OIG will report these
issues as material weaknesses until the agency implements corrective actions.


SCOPE/CONTRIBUTORS

We evaluated the management controls related to the NRC’s implementation of FMFIA for
FY 2001, and conducted our work in November and December 2001, in accordance with
generally accepted Government auditing standards. This review was conducted by
Anthony Lipuma, Team Leader.

If you have any questions or concerns regarding this report, please contact me at 415-5930 or
Stephen Dingbaum at 415-5915.

cc:    Commissioner Dicus
       Commissioner Diaz
       Commissioner McGaffigan
       Commissioner Merrifield




                                                     3
cc:   R. McOsker, OCM/RAM
      B. Torres, ACMUI
      G. Hornberger, ACNW
      G. Apostolakis, ACRS
      J. Larkins, ACRS/ACNW
      P. Bollwerk III, ASLBP
      K. Cyr, OGC
      J. Cordes, OCAA
      W. Travers, EDO
      S. Reiter, CIO
      J. Funches, CFO
      P. Rabideau, Deputy CFO
      J. Dunn Lee, OIP
      D. Rathbun, OCA
      W. Beecher, OPA
      A. Vietti-Cook, SECY
      W. Kane, DEDR/OEDO
      C. Paperiello, DEDMRS/OEDO
      P. Norry, DEDM/OEDO
      M. Springer, ADM
      R. Borchardt, NRR
      G. Caputo, OI
      P. Bird, HR
      I. Little, SBCR
      M. Virgilio, NMSS
      S. Collins, NRR
      A. Thadani, RES
      P. Lohaus, STP
      F. Congel, OE
      M. Federline, NMSS
      R. Zimmerman, RES
      J. Johnson, NRR
      H. Miller, RI
      L. Reyes, RII
      J. Dyer, RIII
      E. Merschoff, RIV
      OPA-RI
      OPA-RII
      OPA-RIII
      OPA-RIV




                                   4
6
